HHS/OIG - Audit,"Review of Managed Care Payments Made Under the State of Texas Access REform Managed Care Program"(A-06-00-00075)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Managed Care Payments Made Under the State of Texas Access Reform
Managed Care Program," (A-06-00-00075)
September 27, 2001
Complete Text of Report is available in PDF format (517 kb).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of an audit of Medicaid payments made by the
Texas Department of Health (TDH) under the State of Texas Access Reform (STAR)
managed care program.  The review disclosed that managed care payments made
for 437 STAR members during the period September 1, 1998 through August 31, 2000,
were improper because the members were either:  (1) not eligible and the payment
amount should have been zero; or (2) misclassified as dual eligible and the payment
amount may need to be adjusted.  We recommended that the Commission: (1) review
and revise as necessary, the States payment system for STAR enrollees in
order to ensure that Medicare entitlement dates are identified in a timely manner,
and managed care payments are not made for ineligible STAR enrollees; (2) ensure
that TDH reviews and makes the appropriate payment adjustments for the 437 members
inappropriately enrolled in the STAR program under the Medicare risk group during
FYs 1999 and 2000 and report the results of the adjustments to the Office
of Inspector General; and (3) ensure that TDH identifies, reviews, and makes the
appropriate payment adjustments for STAR members assigned to the Medicare risk
group for prior years.